August 25, 2009

TOM A. SAMRA
VICE PRESIDENT, FACILITIES

SUBJECT: Sale of the Old Chicago Main Post Office
         (Report Number SA-WP-09-001)

This letter presents the risks we identified during our limited review of the auction of the
Old Chicago Main Post Office scheduled for August 27, 2009 (Project Number
09YG028SA002). Our objective was to assess the U.S. Postal Service’s decision to
dispose of the property through an absolute auction.1

The Postal Service vacated the 73-year old, multi-story, 2.7 million square foot Old
Chicago Main Post Office in May 1996. Based on the information we received from
Facilities, the Postal Service has spent approximately $2.5 million per year to maintain
the facility, plus a one-time expense of $13.77 million on emergency repairs. Over the
past 10 years, the Postal Service has attempted to sell this property through
development deals and have been unsuccessful. Facilities management recently
decided to pursue an absolute auction of the property “as-is,” in an attempt to eliminate
both the expense associated with maintaining the property and a required $9 million
environmental remediation liability.2

We believe an auction is a viable option for the sale of real estate; however, we are
concerned that there are significant risks associated with the Postal Service’s planned
auction of the Old Chicago Main Post Office. Specifically:

        No Minimum Bid Was Established. The terms of the auction allow for the
         property to be sold as-is to the highest bidder, and without a minimum bid. 3 As a
         result, a 2.7 million square foot building in downtown Chicago could be sold for a
         very low price. The advertisement for the auction indicates the replacement
         value of the property is $300 million.




1
  An auction in which the sale is made to the highest bidder and no minimum price is stipulated.
2
  According to Facilities management, there is a $9 million environmental liability associated with the property for
asbestos remediation.
3
  Prospective bidders are required to have a cashier’s check in the amount of $250,000 at the auction.
Sale of the Old Chicago Main Post Office                                       SA-WP-09-001



       No Third-Party Valuation. No appraisal or valuation of the property has been
        conducted. The Postal Service is auctioning the property without substantiated
        knowledge of the property’s market value or the Chicago real estate market.

       No Review of Alternatives. There was no formal review or analysis of
        alternatives associated with the decision to dispose of the Old Chicago Main Post
        Office by auction. As a result, the Postal Service has no assurance that more
        beneficial options for disposition of this property do not exist.

       Market Risks. The sale of the Old Chicago Main Post Office during a recession
        and downturn in real estate values increases the risk that the Postal Service will
        not receive a fair market sales price.

Based on the concerns outlined above, we believe this sale could expose the Postal
Service to financial and public relations risks. In particular, the sale of the Old Chicago
Main Post Office for an amount significantly less than the broker’s advertised
replacement cost given the Postal Service’s current financial condition could cause
adverse publicity and inquiry. This would be difficult to defend against because there is
no minimum bid associated with the auction; no third-party valuation of the property was
performed; and no detailed analysis of alternatives was conducted to justify the decision
to go forward with the auction.

We suggest the Vice President, Facilities, reconsider the auction of the Old Chicago
Main Post Office scheduled for August 27, 2009, if the risks identified in this letter
cannot be reasonably mitigated. The U.S. Postal Service Office of Inspector General is
planning to conduct an audit of real estate disposals in a series of audits regarding
Facilities Optimization.

If you have questions or need additional information, please contact Stephen Chow,
Acting Director, Inspection Service and Facilities, or me at (703) 248-2100.


   E-Signed by Office of Inspector General
     VERIFY authenticity with ApproveIt



Andrea Deadwyler
Deputy Assistant Inspector General
 for Support Operations

cc: Steven J. Forte




                                             2
